No. ______
In the

Supreme Court of the United States
__________________
MICHAEL BORNEMANN,
Petitioner,
v.
BENJAMIN PAUL KEKONA AND TAMAE M. KEKONA,
Respondents.
__________________
On Petition for Writ of Certiorari
to the Intermediate Court of Appeals
of the State of Hawai‘i
__________________
PETITION FOR WRIT OF CERTIORARI
__________________
TERENCE J. O’TOOLE
Counsel of Record
STARN O’TOOLE MARCUS & FISHER
A Law Corporation
733 Bishop Street, Suite 1900
Pacific Guardian Center, Makai Tower
Honolulu, Hawai`i 96813
Telephone: (808) 537-6100
Email: totoole@starnlaw.com
Attorney for Petitioner
Michael Bornemann

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
A. Whether the Hawaii Court gravely erred when it
upheld a grossly excessive punitive damages award
against Bornemann in violation of the Due Process
Clause of the Fourteenth Amendment to the United
States Constitution where:
a. The punitive damages award of $1,642,857.13,
together with post-judgment statutory interest
of $1,314,285.60, totaling $2,957,142 (i) was
more than 10 times the underlying 1994
Judgment against Bornemann of $253,079.29;
and (ii) was not reasonably predictable in its
severity in that it grossly exceeded the punitive
damages awarded against Bornemann by two
prior juries, a trial court and a Hawaii appellate
court on the same identical issues.
b. The Hawaii Supreme Court, in upholding the
grossly excessive punitive damages award,
wrongfully cited to, and relied upon,
“aggravating factors” that included, and arose
out of, Bornemann’s proper pursuit of his due
process rights through multiple trials and
appeals. Bornemann had prevailed on those
appeals, requiring that his case be tried and
retried over a period of many year. and
c. The imposition of post judgment statutory
interest of $1,314,285.60 on top of the
underlying $1,642,857.13 punitive damages
award almost doubled the award and also
resulted in a de facto and unconstitutional
double penalty on Bornemann.

ii
B. Whether the Hawaii Court gravely erred when it
interpreted Hawai`i Revised Statutes (“HRS”) 657-5
(2001) and determined that the underlying
judgment had not expired and prohibited continued
collection efforts of the original September 2, 1994
Revised Final Judgment (“1994 Judgment”).
Respectfully, these questions should be answered in
the affirmative and certiorari granted.

iii
LIST OF PARTIES
Respondents BENJAMIN PAUL KEKONA and
TAMAE M. KEKONA were Plaintiffs-Appellees below.
Respondent PAZ FENG ABASTILLAS
Defendant Pro Se-Appellant below.

was

Respondent ROBERT A. SMITH was Defendant Pro
Se-Appellant below.

iv
STATEMENT OF RELATED PROCEEDINGS
• Standard Mgmt., Inc. v. Kekona, 99 Hawai'i 125, 53
P.3d 264, No. 22750 (Hawai’i App. Feb. 28, 2001)
(vacated and remanded; reconsideration denied
March 21, 2001).
There are no additional proceedings in any court
that are directly related to this case.

v
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . viii
PETITION FOR WRIT OF CERTIORARI TO THE
INTERMEDIATE COURT OF APPEALS OF
THE STATE OF HAWAII . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATUTORY PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE WRIT. . . . . . . . 17
A. The Hawaii Supreme Court Gravely Erred When
it Upheld a Grossly Excessive Punitive Damages
Award Against Bornemann in Violation of
the Due Process Clause of the
Fourteenth Amendment to the United States
Constitution . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
1. The punitive damages award is
constitutionally flawed because it is patently
excessive. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vi
2. The Punitive Damages Award is
Constitutionally Flawed Because it was
Intended to Punish Bornemann for
Exercising His Due Process Rights to Appeal.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
3. The Punitive Damages Award is Also an
Unconstitutional Double Penalty on
Bornemann. . . . . . . . . . . . . . . . . . . . . . . . . . . 21
4. The Punitive Damages Award was Excessive
and Constitutionally Improper in the Context
of this Fraudulent Transfer Case. . . . . . . . . 26
B. The ICA Gravely Erred in Refusing to Hold the
Underlying Judgment Expired on September 2,
2014, Terminating the Fraudulent Transfer
Claim. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
APPENDIX
Appendix A Order Rejecting Application for Writ of
Certiorari in the Supreme Court of the
State of Hawai‘i
(April 4, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Consolidated Third Amended Revised
Final Judgment in the Circuit Court of
the First Circuit, State of Hawaii
(September 19, 2016) . . . . . . . . . . App. 4
Appendix C Memorandum
Opinion
in the
Intermediate Court of Appeals of the
State of Hawai‘i
(November 30, 2018) . . . . . . . . . . App. 12

vii
Appendix D Judgment
on
Appeal
in the
Intermediate Court of Appeals of the
State of Hawai‘i
(January 4, 2019) . . . . . . . . . . . . App. 47

viii
TABLE OF AUTHORITIES
CASES
Air Separation v. Lloyd’s of London,
45 F.3d 288 (9th Cir. 1995). . . . . . . . . . . . . . . . . 24
Amfac, Inc. v. Waikiki Beachcomber Investment Co.,
74 Haw. 85, 839 P.2d 10 (1992) . . . . . . . . . . . . . 23
Austin v. Barrows,
41 Conn. 287 (1874) . . . . . . . . . . . . . . . . . . . . . . 31
Ayer v. Hemingway,
73 A.3d 673 (VT 2013) . . . . . . . . . . . . . . . . . . . . 34
Blumenthal v. Blumenthal,
303 Mass. 275, 21 N.E.2d 244 (1939). . . . . . . . . 35
BMW of N. Am. Inc. v. Gore,
517 U.S. 559 (1996). . . . . . . . . . . . . . . . . 11, 12, 24
C & A Investments v. Kelly,
330 792 N.W.2d 644 (Wis. App. 2010) . . . . . . . . 27
Cadle Company v. Organes Enterprises, Inc.,
29 A.D.3d 927 (S.Ct. App. Div. 2d. Dept. N.Y.
2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27, 28
Calleon v. Miyagi,
76 Hawai‘i 310, 876 P.2d 1278 (1994) . . . . . 22, 23
Carr v. Guerard,
616 S.E.2d 429 (S.C. 2009) . . . . . . . . . . . . . . . . . 37
Central-Penn Nat’l Bank of Phila. v. Culp,
182 A. 239 (Pa. 1936) . . . . . . . . . . . . . . . . . . . . . 36

ix
Clark v. Rosson,
657 P.2d 903 (Ariz. App. 1982). . . . . . . . . . . 35, 36
Damazo v. Wahby,
269 Md. 252, 305 A.2d 138 (1973) . . . . . . . . . . . 28
Dime Savings Bank of New York, FSB v. Butler,
1997 WL 112776 (Conn. Super. 1997) . . . . . . . . 31
E. R.R. Presidents Conference v. Noerr Motor
Freight, Inc.,
365 U.S. 127, 81 S.Ct. 523 (1961) . . . . . . . . . . 121
Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008). . . . . . . . . . . . . . . . . . . . . . . 17
In re Shore,
305 B.R. 559 (Bankr. D. Kan. 2004) . . . . . . . . . 28
In the case of In Re Estate of Ferdinand E. Marcos
Human Rights Litigation,
536 F.3d 980 (9th Cir 2008) . . . . . . . . . . . . . . . . 33
Int’l Sav. And Loan Ass’n Ltd. v. Wiig,
82 Hawai`i 197, 921 P.2d 117
(1996). . . . . . . . . . . . . . . . . . . . . . . . . 32, 33, 36, 37
Jahner v. Jacob,
515 N.W. 2d 183 (N.D. 1994) . . . . . . . . . . . . . . . 36
Jorden v. Ball,
258 N.E.2d 736 (Mass. 1970) . . . . . . . . . . . . . . . 35
Kekona v. Abastillas,
113 Hawai'i 174, 150 P.3d 823 (2006) . . . . passim

x
Kekona v. Abastillas,
111 Hawaii 203, 140 P.3d 436, 2006
WL 1562086, No. 24051, (Hawai'i App. Jun. 8,
2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Kekona v. Bornemann,
130 Hawai'i 58, 305 P.3d 474 (App. 2013) . passim
Kekona v. Bornemann,
135 Hawai'i 254, 349 P.3d 361 (2015) . . . . passim
Kroop & Karland, P.A. v. Lambros,
118 Md. App. 651, 703 A.2d 1287 (1998) . . . . . . 34
Laidley v. Heigho,
326 F.2d 592 (9th Cir. (Cal.) 1963 . . . . . . . . . . . 35
Leibert v. Finance Factors, Ltd.,
71 Haw. 285, 788 P.2d 833 (1990) . . . . . . . . 22, 23
Lochafrance United States Corp. v. Interstate
Distribution Services, Inc.,
451 N.E.2d 1222 (Ohio 1983) . . . . . . . . . . . . . . . 29
Metcalf v. Voluntary Employees’ Ben. Ass’n of
Hawaii,
99 Hawai`i 53, 52 P.3d 823 (2002) . . . . . . . . . . . 22
Miller v. Kaiser,
433 P.2d 772 (Colo. 1967) . . . . . . . . . . . . . . . 28, 31
Mussetter v. Lyke,
10 F. Supp.2d 944 (N.D. Ill. 1998) . . . . . . . . . . . 28
Northern Tankers, Ltd. v. Backstrom,
968 F. Supp. 66 (D. Conn. 1997) . . . . . . . . . . . . 27

xi
Oregon Recovery, LLC v. Lake Forest Equities, Inc.,
211 P.3d 937 (Or. App. 2009) . . . . . . . . . . . . 35, 37
Perry v. Perez-Wendt,
129 Hawai`i 95, 294 P.3d 1081 (2013) . . . . . . . . 21
Regency Centre Development Co., Ltd. v.
Construction Dimensions, Inc.,
2003 WL 22215483 (Ohio App. 8 Dist. 2003) . . 28
Remington-Rand, Inc. v. Emory University,
196 S.E. 58 (Ga. 1938) . . . . . . . . . . . . . . . . . . . . 35
Roxas v. Marcos,
89 Hawai‘i 91, 969 P.2d 1209 (1998) . . . . . . . . . 23
RRR, Inc. v. Toggas,
98 F.Supp.3d 12 (2015) . . . . . . . . . . . . . . . . . . . . 37
Schmidt v. Board of Directors of Ass'n of Apartment
Owners of Marco Polo Apartments,
73 Haw. 526, 836 P.2d 479 (1992) . . . . . . . . 22, 23
Standard Mgmt., Inc. v. Kekona,
99 Hawai'i 125, 53 P.3d 264 (2001) . . . . . . . . . 1, 3
State Farm Mut. Auto. Ins. Co. v. Campbell,
538 U.S. 408, 123 S.Ct. 1513, 155 L.Ed.2d 585
(2003). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10, 24
State of Rio De Janeiro v. E.H. Rollins & Sons, Inc.,
87 N.E.2d 299 (N.Y. 1949) . . . . . . . . . . . . . . 35, 36
Strom v. Felton,
302 P.2d 917 (Wyo. 1956) . . . . . . . . . . . . . . . . . . 35
Summer v. Hagen,
852 P.2d 1165 (Alaska 1993) . . . . . . . . . . . . . . . 28

xii
United Mine Workers of Am. v. Pennington,
381 U.S. 657, 85 S.Ct. 158 (1965) . . . . . . . . . . . 21
Valvanis v. Milgroom,
No. 06–00144, 2009 WL 1561575 (D. Haw.
June 1, 2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Volk Construction Co. v. Wilmescherr Drusch
Roofing Co.,
58 S.W.3d 897 (Mo. App. E.D. 2001) . . . . . . . . . 28
STATUTES
Hawai`i Revised Statutes (“HRS”)
657-5 (2001). . . . . . . . . . . . . . . . . . . . . . . . . passim
HRS § 478–3 (1993) . . . . . . . . . . . . . . . . . . . . . . . 2, 22
HRS § 651C-10 . . . . . . . . . . . . . . . . . . . . . . . . . . 29, 30
HRS § 651C-4(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . 5
HRS § 651C-5 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
HRS § 651C–7 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
HRS § 651C–7(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 30
HRS § 651C–7(a)(3) . . . . . . . . . . . . . . . . . . . . . . . . . 30
HRS § 651C-7(a)(3)(C) . . . . . . . . . . . . . . . . . . . . 29, 30
HRS § 651C–8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
HRS § 651C–8(b) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 30
HRS Chapter 634F. . . . . . . . . . . . . . . . . . . . . . . . . . 21
HRS Chapter 651C (1985) . . . . . . . . . . . . . . . . . . . . 15

xiii
OTHER AUTHORITIES
28 U.S.C. 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
37

Am.Jur.2d Fraudulent Conveyances and
Transfers §§ 142–172 (2001). . . . . . . . . . . . . . . . . 9

37 C.J.S. Fraudulent Conveyances Sec. 70
(1943). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
4 C.J.S., Limitations of Actions § 7 Distinctions
Between Statutes of Limitations and Statutes of
Repose (2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
D.C. Code §15-39-30 (1976) . . . . . . . . . . . . . . . . . . . 37
U.S. Const. Amend. XIV, § 1 . . . . . . . . . . . . . . . . . . . 2

1
PETITION FOR WRIT OF CERTIORARI TO THE
INTERMEDIATE COURT OF APPEALS OF
THE STATE OF HAWAII
Petitioner Michael A. Bornemann (“Bornemann”
or “Petitioner”), by and through his counsel,
respectfully petitions for a writ of certiorari to review
the opinion and judgment of the Intermediate Court of
Appeals, as affirmed on denial of application for
certiorari to the Hawaii Supreme Court (sometimes
collectively referred to herein as the “Hawaii Court”).
OPINIONS BELOW
The Memorandum Opinion of the Intermediate
Court of Appeals of the State of Hawaii, entered
November 30, 2018 (“ICA”) (App. A, infra) is not
reported. The Order of the Supreme Court of Hawaii
denying a Petition for Writ of Certiorari (App. C, infra)
is not reported.
Other published and unpublished decisions in this
case sub judice include: Standard Mgmt., Inc. v.
Kekona, 99 Hawai'i 125, 53 P.3d 264 (2001); Kekona v.
Abastillas, 111 Hawaii 203, 140 P.3d 436, 2006 WL
1562086, No. 24051, (Hawai'i App. Jun. 8, 2006) (Mem.
Op.) (“Kekona I”), vacated in part by 113 Hawai'i 174,
150 P.3d 823 (2006) (“Kekona II”); Kekona v.
Bornemann, 130 Hawai'i 58, 305 P.3d 474 (App. 2013)
(“Kekona III”), vacated in part by 135 Hawai'i 254, 349
P.3d 361 (2015) (“Kekona IV”) (collectively attached as
App. D, infra).

2
JURISDICTION
The judgment of the Intermediate Court of Appeals
of the State of Hawaii (App. B, infra) was entered on
November 30, 2018. The Hawaii Supreme Court denied
Petitioner’s Petition for Certiorari on April 4, 2019
(App. C, infra). The jurisdiction of this Court is invoked
under 28 U.S.C. 1257.
STATUTORY PROVISIONS INVOLVED
The Due Process Clause of the Fourteenth
Amendment to the United States Constitution
provides: “No State shall . . . deprive any person of life,
liberty, or property, without due process of law.” U.S.
Const. Amend. XIV, § 1.
Hawai`i Revised Statutes (“HRS”) 657-5 (2001)
provides in pertinent part:
Unless an extension is granted, every judgment
and decree of any court of the State shall be
presumed to be paid and discharged at the
expiration of ten years after the judgment or
decree was rendered. . . . A court shall not
extend any judgment or decree beyond twenty
years from the date of the original judgment or
decree. . . .
HRS § 478–3 (1993) provides: “Interest at the rate of
ten per cent a year, and no more, shall be allowed on
any judgment recovered before any court in the State,
in any civil suit.”.

3
STATEMENT OF THE CASE
As the ICA correctly noted, the litigation between
the parties has an extensive, multi-decade history. The
underlying collection lawsuit was brought in 1993 by
Respondents Plaintiffs-Appellees Benjamin Paul
Kekona and Tamae M. Kekona (“Kekonas”) against
Defendants-Appellants Paz F. Ab astillas
(“Abastillas”), Robert A. Smith (“Smith”) and
Bornemann, among others. The Kekonas claimed the
Defendants prevented them from recovering an award
from a prior lawsuit. See App. A at 1. In the prior
lawsuit, filed November 13, 1989, Standard
Management, Inc. (“SMI”), a company run by
Abastillas, filed suit against the Kekonas based on a
business dispute related to operating a tram at
Hanauma Bay (“Hanauma Bay lawsuit”). See
Standard Mgmt., Inc. v. Kekona, 99 Hawai'i 125, 53
P.3d 264 (2001). ·Therein, the Kekonas counterclaimed
and brought third-party claims against Abastillas and
Smith, individually. In May of 1993, the Kekonas
secured a jury verdict against SMI, Abastillas and
Smith.
Within days of the verdict, Abastillas
transferred to Bornemann an apartment unit located
on HPP Avenue (“HPP property”), and Abastillas and
Smith transferred to Bornemann their primary
residence, located in Kane'ohe (“Kane`ohe
property”).1 See id.

1

Bornemann has always claimed and shown that he, too, had a
pre-existing debt owed by Abastillas to him and a basis for said
transfers. See Kekona, 130 Hawaii at 62-3, 305 P.3d at 478-9.

4
In October of 1993, the Kekonas initiated the
underlying lawsuit for fraudulent conveyance, among
other claims, based on the transfer of the HPP and
Kaneohe properties on May 26, 1993 and June 1, 1993,
respectively, to Bornemann.2 This action generated
three separate trials and two prior sets of appeals.
See Kekona I, Kekona II, Kekona III and Kekona IV,
supra.
A jury trial began on May 10, 1999, with the case
being submitted to the jury on May 20, 1999. See
Kekona I, 111 Hawai`i at *1-2, 140 P.3d at *1-2. On
May 21, 1999, by a detailed special verdict form, the
jury found by a preponderance of evidence that the
Kaneohe property was fraudulently transferred to
Bornemann and awarded the Kekonas $29,064 in
special damages and $17,436 in general damages
against Abastillas; $6,000 in special damages and
$3,600 in general damages against RASCORP; and
$156,564 in special damages and $93,936 in general
damages against SMI. The jury also found by clear and
convincing evidence that Abastillas, Smith, RASCORP,
SMI and Bornemann conspired to fraudulently transfer
the Kaneohe property and awarded $100,000 in
resulting damages that the HPP property was
fraudulently transferred to Bornemann and awarded
the Kekonas $15,128 special damages and $9,076
general damages against Abastillas; and that
Abastillas, Smith and Bornemann conspired to
fraudulently transfer the HPP property and awarded
$100,000. Finally, the jury found by clear and
convincing evidence that the Kekonas should be
2

See Kekona IV, 135 Hawai`i at 258, 349 P.3d at 365.

5
awarded punitive damages and awarded them
$250,000 against Abastillas, Smith, RASCORP, SMI
and Bornemann each. See Kekona I, 111 Hawai`i at
*5-6, 140 P.3d at *5-6.
On July 22, 1999, Bornemann filed a Motion for a
New Trial and/or to Eliminate Punitive Damages,
which the circuit court granted in part. The Circuit
Court found the award of $250,000 in punitive damages
against Bornemann to be excessive and reduced the
award to $75,000. The Circuit Court then ordered a
new trial solely on the question of punitive damages,
unless the Kekonas would consent to the reduction
(which they did not). Id. at *7, 140 P.3d at *7. Because
the Kekonas refused, a new trial on punitive damages
against Bornemann was submitted to a jury. On
November 2, 2000, the jury awarded the Kekonas
$594,000 in punitive damages against Bornemann. Id.
The Circuit Court entered a Revised Final Judgment
on November 30, 2000, combining both jury verdicts
with minor modifications that have no bearing here.
After several motions, the circuit court entered an
Amended Revised Final Judgment on February 26,
2001. Appeals and cross-appeals were filed May 20,
2002. Id.
In 2006, the ICA affirmed in part and reversed in
part the final judgment of the Circuit Court and ruled,
among other things, that the requisite burden of proof
on a constructive fraud claim under HRS § 651C-4(a)(2)
and 651C-5 was preponderance of the evidence; and
HUFTA allowed compensatory and punitive damages,
following the law of Ohio., These rulings were seminal
rulings in Hawaii, where there was conflicting case law

6
from other jurisdictions, including California (allowing
preferential transfers to other creditors under
California’s UFTA) and New York (allowing limited
compensatory damages and no punitive damages under
New York’s UFTA).3 See Kekonas I, 111 Hawaii at *11,
*12-16, *20, and *24, 140 P.3d at *11, *12-16, *20 and
*24.
Bornemann, Abastillas and Smith filed
applications for writs of certiorari to the Hawai`i
Supreme Court, which were granted.
On September 26, 2006, in a reported decision, the
Hawai`i Supreme Court held that the ICA gravely
erred and reversed the portion of the ICA’s above
decision regarding the requisite standard of proof,
vacating and remanding the matter to the Circuit
Court for a new trial as to the Kekonas’ claim of
conspiracy and the $594,000 in punitive damages
against Bornemann. See Kekona II, 113 Hawai`i at
180-82, 150 P.3d at 829-31.
On remand, the third trial began in late December
2007.4 On January 3, 2008, the jury returned a special
verdict finding among other things that Bornemann
conspired with one or more persons to harm the
Kekonas in the fraudulent transfer of the Kaneohe
property, and that punitive damages should be
awarded against Bornemann. See Kekona III, 130
Hawai`i 62-3, 305 P.3 at 478-79. With respect to the
HPP Property, the jury determined that the Kekonas

3

See Section A.4 below, discussing case law from several
jurisdictions.
4

See Kekona IV, 135 Hawai`i at 259-60, 349 P.3d at 366-67.

7
did not prove that the HPP Property was transferred
without reasonably equivalent value and determined
that Bornemann proved that he took the HPP Property
in good faith and for reasonably equivalent value –
meaning that it was not fraudulently transferred. See
id.
The jury then awarded $253,075.29 in
compensatory damages arising from the conspiracy
count vis-à-vis the Kaneohe Property and
$1,642,857.13 in punitive damages.
See id.
Bornemann filed a Motion to Amend Judgment
challenging the compensatory and punitive damages,
which was denied. Final judgment was entered, and
Bornemann appealed.
On appeal, Bornemann argued inter alia that
(1) the Kekonas received a double recovery of $253,000
in compensatory damages, and (2) the punitive
damages award was excessive and unconstitutional.
Id. at 63-4, 305 P.3d at 479-80.
Bornemann’s third argument concerns
whether the Kekonas proved separate damages
for conspiracy to fraudulently transfer the
Kaneohe property. The undisputed evidence is
that the accumulated interest from the 199[4]
Judgment in the amount of $191,000 is
$253,075.29. The jury awarded $253,075.29
against Bornemann for his participation in the
conspiracy to fraudulently transfer the Kaneohe
property. Thus, because of Bornemann conspiring
to fraudulently transfer the Kaneohe property,
the Kekonas were unable to collect on their
original judgment, which resulted in the
accumulation of $253,075.29 in interest on that

8
judgment. However, as the ICA concluded in its
2006 Memorandum Opinion, the damages
necessary to compensate for the “conspiracy” are
the same damages as are necessary to
compensate the Kekonas for the fraudulent
transfer and, although the amount of interest on
the original $191,000 increased, no other damages
were proven. As discussed further below, setting
aside for the moment the issue of punitive
damages, the Kekonas are entitled to a remedy
that fully compensates them for the harm they
suffered as a result of Bornemann’s wrongful
conduct. However, they are not entitled to
collect that amount more than once.
Bornemann’s fourth and fifth arguments are
related. Bornemann argues that HRS
§ 651C–8(b) limits any fraudulent transfer
judgment to the value of the asset transferred or
the amount necessary to satisfy the creditor’s
claim, whichever is less. Bornemann notes that
the 199[4] Judgment was for approximately
$191,000 and the accumulated interest on that
judgment was roughly $253,000, making a total
of approximately $444,000. Since the current
equity in the Kaneohe property is purportedly at
least $950,000, Bornemann argues, the Circuit
Court’s cancellation of the fraudulent transfer of
the Kaneohe property provides “twice the equity
necessary to fund the [May 199[45]] judgment.”

5

The ICA’s 2013 Decision advertently refers to a 1993 Judgment.
There was a judgment entered in 1993 that was later revised on
September 2, 1994.

9
Thus, Bornemann argues that the compensatory
damages award constituted “double recovery”
because there was no evidence that the
liquidation of the Kaneohe property would not
satisfy the 199[4] Judgment plus the interest.
With respect to compensatory damages for a
fraudulent transfer, and/or compensatory
damages for a conspiracy to commit a fraudulent
transfer (which in this case results in a unified
amount of damages), although not entirely
correct (with respect to the equity in the
Kaneohe property), Bornemann’s point is well
taken. The Kekonas are entitled to a variety of
means to secure a full recovery of their losses
from Bornemann and/or the asset fraudulently
transferred to him, but only once, not twice. See
generally HRS §§ 651C–7 & 651C–8 and 37
Am.Jur.2d Fraudulent Conveyances and
Transfers §§ 142–172 (2001) (discussing
remedies for fraudulent conveyances and
transfers).
...
Taken as a whole, this statutory scheme
provides the Kekonas with any number of ways
to recover what is due to them, but it does not
allow them to be compensated more than
once. Clearly (and again setting aside the issue
of punitive damages for the moment), the
Kekonas can set aside the transfer of the
Kaneohe property to the extent necessary
to satisfy the amount of the original
judgment plus the statutory interest, which

10
is an additional amount of damages due to
them (whether construed as damages for
the fraudulent transfer or the conspiracy
to commit the fraudulent transfer). The
Kekonas can execute on the property without
voiding the transfer. The Kekonas can attach
and execute on other property of Bornemann in
the amount due to them. The Kekonas can
obtain a money judgment against Bornemann.
Nothing in the Hawai‘i statute requires the
Kekonas to elect one remedy over another. The
statute does not, however, allow them
recovery of both the asset transferred
(regardless of its value) and, in addition, a
judgment in the full amount of their
damages.
Thus, although the Kekonas are entitled
to relief against Bornemann for the amount
of the original underlying judgment
against Smith and Abastillas plus the
statutory interest awarded by the jury as
damages, further proceedings are
necessary to fashion an appropriate form
or forms of remedy, executed in a manner
that their recovery does not exceed the
sums due to them.
Kekona III, 130 Hawai`i at 67-9, 305 P.3d at 483-85
(emphases and some brackets added).
The ICA also reversed and recommended a
reduction of the punitive damages award from
$1,642,857.13 to $250,000 based upon constitutional
considerations. In doing so, the ICA looked at the

11
factors analyzed in BMW of N. Am. Inc. v. Gore, 517
U.S. 559, 574-77 (1996) and State Farm Mut. Auto. Ins.
Co. v. Campbell, 538 U.S. 408, 419 (2003). See id. at
72-3, 305 P.3d at 488-89. The ICA concluded that the
majority of the factors associated with the most
important indicium of the reasonableness of a punitive
damages award – the degree of reprehensible conduct
– were not present. The harm inflicted was purely
economic, not physical; there was no evidence that the
Kekonas were particularly financially vulnerable; and
Bornemann was held liable for his participation in a
single transfer – the Kaneohe property. The ICA also
noted that neither party had identified, nor had the
Court located, any Hawaii state court cases in which
punitive damages were awarded in a fraudulent
transfer case. Likewise, the ICA noted that Abastillas
and Smith, “who were most directly culpable for
seeking to avoid their liability to the Kekonas, were
assessed just $250,000 in punitive damages.” Id. at 73,
305 P.3d at 489. Finally, in concluding its decision, the
ICA pointed to the only Hawaii-related fraudulent
transfer case it could find where punitive damages
were awarded – an unpublished federal district court
case involving an award of $250,000 in punitive
damages on a previously-obtained judgment of
$4,000,000. See id. (citing Valvanis v. Milgroom, No.
06–00144, 2009 WL 1561575, at *1 (D. Haw. June 1,
2009)). The Kekonas filed an application for writ of
certiorari requesting review of the punitive damages
award only, leaving the remainder of the ICA 2013
Decision intact.
On April 24, 2015, the Hawaii Supreme Court
issued the 2015 Decision in this matter. (RA52:23:867-

12
894). In its procedural history of the case, the Court
acknowledged that, in addition to vacating the punitive
damages award as grossly excessive and
unconstitutional, the ICA “vacated the $253,000 special
damages award.” Kekona IV, 135 Hawai`i at 262, 349
P.3d at 369. In essentially vacating the punitive
damages portion of the ICA decision and reinstating
the punitive damages award below, the Hawaii
Supreme Court engaged in its own analysis of the
factors under Gore, supra, as applied to the facts of the
case, and came to the opposite conclusion as to the
presence of aggravating factors. Importantly, however,
although the Hawaii Supreme Court referenced the
“compensatory award” of $253,000 as the basis for
comparison in affirming the $1,642,857.13 in punitive
damages in three different portions, that compensatory
award was vacated by the ICA as duplicative of the
underlying interest component on the underlying
original 1994 judgment of $191,628.27. Therefore,
there was no longer a compensatory damage award for
purposes of the Court’s punitive-versus-compensatory
ratio analyses. See Kekona IV, 135 Hawai`i at 264-67
& n.14, 349 P.3d at 371-74 & n.14. Previously, in its
2006 Decision, the Court had analogized the
“establishment of liability” in a fraudulent transfer
claim without a corresponding compensatory award as
the functional equivalent of “nominal damages” and
sufficient for purposes of awarding punitive damages.
See Kekona II, 113 Hawai`i at 179-80, 150 P.3d at 82829. The Hawaii Supreme Court vacated “the ICA’s
September 16, 2013 Judgment on Appeal to the extent
that it vacated the punitive damages award against
Bornemann and remand[ed] to the circuit court for
further proceedings consistent with” the opinion.

13
Kekona IV, 135 Hawai`i at 267, 349 P.3d at 374.
Therefore, the Supreme Court did not modify the ICA’s
2013 Decision regarding the compensatory award or
the direction to the Circuit Court regarding the
remedies permitted in terms of collection of the original
1994 Judgment plus interest or setting aside the
transfer – whichever is less. See Kekona III, 130
Hawai`i at 67-9, 305 P.3d at 483-85.
Bornemann filed a motion for reconsideration on
May 4, 2015, which was denied on May 22, 2015. The
Supreme Court entered the Judgment on Appeal on
June 19, 2015, remanding the matter back to the First
Circuit Court for further proceedings. (RA52:23:866)
The Kekonas then filed a motion for reconsideration of
the judgment on appeal on June 25, 2015, which was
granted on July 6, 2015. See Kekona v. Bornemann,
135 Hawai`i 405, 353 P.3d 408 (2015). The Amended
Judgment on Appeal was filed on July 7, 2015, and the
case was remanded to the Circuit Court.
(RA52:23:1071-72)
On September 19, 2016, the Circuit Court entered
the “Consolidated Third Amended Revised Final
Judgment” filed on (“9/19/16 Consolidated
Judgment”), (1) declining to apply HRS § 657-5 and
determining that the underlying judgment had expired
and prohibited continued collection efforts of the
original 1994 Judgment; (2) transferring the Kaneohe
property to Smith and Abastillas without considering
its value in comparison to the value of the 1994
Judgment (plus interest accrued) and without
providing Bornemann a credit for the approximate
$315,400 in equity remaining in the property above the

14
remaining amount of the 1994 Judgment (plus interest
accrued); and (3) awarding statutory interest of
$1,314,285.60, in addition to the punitive damage
award of $1,642,857.13, for a total of $2,957,142.73 in
punitive damages and interest against Bornemann –
which together totaled more than fifteen (15) times the
amount of the underlying 1994 Judgment of
$191,628.97. Bornemann in CAAP-16-0000679 and
Abastillas and Smith in CAAP-16-0000782,
respectively, contested the “Consolidated Third
Amended Revised Final Judgment” filed on September
19, 2016 (“9/19/16 Consolidated Judgment”). In
CAAP-16-0000679, Petitioner appealed an “Order
Granting in Part Plaintiffs’ Motion to Amend Three
Orders to Pay Over, and for Other and Further Relief,”
filed February 1, 2016; and an ''Order Denying
[Bornemann]'s Motion to Vacate Judgment Entered on
February 5, 2008 or Any Judgment Entered on
Remand, and to Dismiss this Case in its Entirety,” filed
on October 8, 2015.
Petitioner argued the 9/19/16 Consolidated
Judgment should be vacated: (1) because the 1994
judgment in the Hanauma Bay lawsuit expired on
September 2, 2014, pursuant to HRS § 657-5, and thus
can no longer support the judgments in the instant
case; (2) the Circuit Court erred by canceling deeds and
returning the Kane`ohe property to Abastillas and
Smith without affording Bornemann credit for equity;
and (3) the Circuit Court erred by awarding both postjudgment statutory interest and punitive damages
against Bornemann, where the punitive damages
award already reflected punishment for delayed
payment to the Kekonas. See App. A at 3-4. In its

15
November 30, 2018 unpublished memorandum opinion,
the ICA agreed with Bornemann on one of the above
three issues – reversing the portion of the 9/19/16
Judgment only with regard to the portion that canceled
and voided the deeds related to the Kaneohe property
without affording Bornemann a credit for the difference
in the value of the real property and amount of the
actual judgment owed, pursuant to HRS Chapter 651C
(1985) (Hawaii’s Uniform Fraudulent Transfer Act
(“HUFTA”). See App. A at 4-5, and 18-21. The ICA
affirmed the remaining two issues (see id. at 4-5, 14-17,
and 21-25), and issued the Judgment on Appeal, on
January 4, 2019. Bornemann filed an application for
writ of certiorari the Hawaii Supreme Court, which
was denied on April 4, 2019. This Application timely
followed.
Questions regarding the viability of a preferential
transfer defense, the requisite burden of proof and
permissible remedies in a HUFTA claim, as well as the
constitutionality of significant punitive damages
against a transferee absent clear and convincing
evidence of actual intent or malice, together, generated
3 separate jury trials and 4 separate appeals. After the
2015 remand in Kekona IV, supra, on June 23, 2015,
Bornemann filed a motion to vacate the judgment
entered on February 5, 2008 (“Motion to Vacate”).
(RA52:23:926-1008) In short, Bornemann argued that
the 1994 Judgment expired on September 3, 2014,
pursuant to the plain language of HRS § 657-5
(limiting a judgment to a maximum of 20 years), and,
without a presently enforceable debt or other claim for
relief, the Kekonas could no longer recover
compensatory damages (whether nominal or actual) or

16
punitive damages from Bornemann. (RA52:23:9261008) Kekonas essentially argued that the Circuit
Court could not ignore the mandate of the Court’s 2015
Decision, that Defendants waited too long to argue that
the 1994 Judgment had expired, and that the Hawaii
Supreme Court held that liability for a conspiracy to
defraud leading to an award of punitive damages needs
no underlying compensatory or special damages.
(RA54:24:27-42)
The Circuit Court denied
Bornemann’s Motion to Vacate. (RA54:24:432-434)
Based on the Circuit Court’s February 1, 2016
Orders and Judgment, Bornemann paid a total of
$2,957,142.73, in addition to the transfer of the
Kaneohe property valued at approximately $910,000.
(RA58:26:187-95) A satisfaction of judgment as to
Bornemann has been recorded, expressly reserving
Bornemann’s rights in the underlying appeal.
(RA58:26:390-98) On October 14, 2016, Bornemann
timely filed a Notice of Appeal to the Hawaii Supreme
Court (RA58:26:944-955). After full briefing in the
consolidated appeals, the ICA issued Memorandum
Opinions on November 30, 2018 and the Judgment on
Appeal on January 4, 2019. Bornemann filed an
application for writ of certiorari to the Hawaii Supreme
Court, which was denied on April 4, 2019. This timely
Petition followed.

17
REASONS FOR GRANTING THE WRIT
A. The Hawaii Supreme Court Gravely Erred
When it Upheld a Grossly Excessive Punitive
Damages Award Against Bornemann in
Violation of the Due Process Clause of the
Fourteenth Amendment to the United States
Constitution
The punitive damages award suffers from multiple
constitutional flaws. Moreover, this case provides the
Court with the much needed opportunity to again
speak out loudly and clearly against outlier punitive
damage awards that are grossly excessive,
disproportionate and totally unpredictable in their
severity. The Hawaii Court’s outlier decision below
flatly ignores this Court’s heightened concern with the
“stark unpredictability of punitive damage awards” and
the Court’s strong admonition that such awards must
be reasonably predictable in their severity. Exxon
Shipping Co. v. Baker, 554 U.S. 471, 495, 496 (2008).
Here, the absence of predictability is both shocking
and patent: based upon the same identical set of facts,
involving the same parties, three juries awarded
punitive damages that differed by as much as 650%;
one trial court concluded that due process required an
award no higher than $75,000 (4.5% of the ultimate
punitive damages award); and, the Hawaii
Intermediate Court of Appeal’s due process standard
would have reduced the final shocking $1,642,857.13
award by 85%. In truth, and sadly, more predictability
and certainty can be found by buying a ticket in a state
lottery!

18
1. The
punitive
damages
award
constitutionally flawed because it
patently excessive.

is
is

The original underlying compensatory damages
award against Bornemann of $253,079.29 arose out of
a highly contested fraudulent transfer claim involving
Bornemann as transferee. The juries in the first two
trials awarded punitive damages against Bornemann
of $250,000 and $594,000 respectively. In the first jury
trial, the trial court found the $250,000 punitive
damages award to be excessive and reduced it to
$75,000. The Kekonas refused to accept the lower
amount and opted for a new trial. . In the second jury
trial, the jury increased the punitive damages award to
$594,000. But, that award and judgment was entirely
vacated by the Hawaii Supreme Court based on an
error of law at the trial court level concerning the
proper standard of proof for a fraudulent transfer.
When the third jury awarded $1,642,857.13 in punitive
damages against Bornemann, the Hawaii Intermediate
Court of Appeals deemed this award to be so grossly
excessive that it reduced the award by 85% to
$250,000. In sum, over the course of several decades,
and based upon the same set of facts, two juries, a trial
court and the Hawaii Intermediate Court of Appeals all
bracketed a reasonable punitive damages award
between a low of $75,000 and a high of $594,000. The
only outlier was the Hawaii Supreme Court who, as
discussed below, went out of its way to find
“aggravating factors” to punish Bornemann and to
conclude, in essence, that Bornemann’s exercise of his
due process rights through three trial and multiple

19
appeals over
punishment.

several

decades

merited

special

The differences in punitive damages between the
three jury awards, between the one trial court
remittitur and the jury awards and between the two
Hawaii appellate courts are so vast that, on their face,
they belie the notion that the ultimate $1,642,857.13
punitive damages award is “reasonably predictable”
and consistent with due process.
2. The Punitive Damages Award is
Constitutionally Flawed Because it was
Intended to Punish Bornemann for
Exercising His Due Process Rights to
Appeal.
The Hawaii Supreme Court specifically found that
the extraordinarily large punitive damages award here
was proper and justified in large part due to
“aggravating factors”. Those “aggravating factors”
however, all arose out of, or related to, Bornemann’s
exercise of his due process rights to appeal; and,
Bornemann had, in fact, prevailed on those appeals.
It is particularly instructive to review the Hawaii
Supreme Court’s description of what it considered to be
“aggravating factors”. In each instance, the aggravating
factor ties directly to delays and costs experienced by
the Kekonas as a result of the multiple trials and
appeals over a period of several decades while
Bornemann pursued his due process rights. For
example, in its decision, the Court cites to the
following: “the Kekonas could not collect on their
judgment”; “Mr. Kekona died during the pendency of

20
the litigation” without collecting anything on the
original judgment and with his retirement plans
greatly disrupted”; “the Kekonas were forced to consign
years of their retirement to full-scale litigation in order
to recover amounts that they were legitimately owed”.
In truth, both sides chose to litigate to the end but it
was Bornemann’s conduct that was selected out as an
“aggravating factor” to justify a huge punitive damages
award.
In short, despite that fact that Bornemann pursued
three successful appeals, obtaining reversals of
significant issues at trial (see id. at 61-62, 305 P.3d at
477-78 (detailing the three trials, appeals and reversals
on various legal issues), the Hawai`i Supreme Court
relied upon the amount of attorneys’ fees incurred, and
the corresponding delay caused during these appeals
(notwithstanding their validity and Bornemann’s
success in obtaining reversals of various errors
committed by the trial court – without considering the
instances where the Kekonas appealed), as a basis for
the Court to affirm a punitive damage award equal to
more than fifteen (15) times underlying compensatory
award. See Kekona v. Bornemann, 135 Hawai`i 254,
264, 349 P.3d 361, 371 (2015). As discussed below,
awarding the Kekonas post-judgment interest to
compensate them for the delay pending the appeal
would have more than compensated them for the same
delay component that the Hawaii Supreme Court
included in the punitive damage award itself.
The Hawaii Supreme Court’s 2015 Decision not only
punished Bornemann for not accepting improper
standards of proof imposed at trial or other errors of

21
law committed by the Circuit Court but it also clearly
signaled to future litigants that those who exercise
legitimate appeal rights may be punished for doing so
and may exponentially increase their risk of a large
punitive damages award for the delay caused thereby.
Cf. Perry v. Perez-Wendt, 129 Hawai`i 95, 102, 294
P.3d 1081, 1088 (2013) (acknowledging that “public
participation” in the form of actual legislative or
judicial petitioning activity is protected under HRS
Chapter 634F and the First Amendment of the U.S.
Constitution, the Petition Clause in article I, section 4
of the Hawai‘i Constitution); see also E. R.R. Presidents
Conference v. Noerr Motor Freight, Inc., 365 U.S. 127,
81 S.Ct. 523 (1961); United Mine Workers of Am. v.
Pennington, 381 U.S. 657, 85 S.Ct. 158 (1965).
3. The Punitive Damages Award is Also an
Unconstitutional Double Penalty on
Bornemann.
The Hawaii Court’s imposition of post judgment
statutory interest of $1,314,285.60 on top of the
underlying $1,642,857.13 punitive damages award not
only almost doubled the award but it also resulted in a
de facto unconstitutional double penalty on
Bornemann. That is, the Hawaii Court had already
upheld the excessively high punitive damages award to
compensate the Kekonas for what the Court deemed to
be delays and costs caused by Bornemann’s appeals;
and, thereafter the Hawaii Court sustained the trial
court’s award of post-judgment statutory interest on
that award of 10 % per year. The very purpose of post-

22
judgment statutory interest6 is to compensate the
prevailing party for delayed payment.
While Hawaii courts have addressed whether
awarding post-judgment interest constitutes an illegal
or excessive penalty in and of itself, and have
addressed the general framework for evaluating a
request for pre-judgment interest on an award of
punitive damages, Hawaii courts have not addressed
the propriety of an award of post-judgment interest in
addition to a significant award of punitive damages.
See e.g., Metcalf v. Voluntary Employees’ Ben. Ass’n of
Hawaii, 99 Hawai`i 53-61, 6, 52 P.3d 823, 830-31
(2002). In Metcalf, the Hawai`i Supreme Court
explained:
Pre-judgment interest is designed “to allow the
court to designate the commencement date of
interest in order to correct injustice when a
judgment is delayed for a long period of time for
any reason, including litigation delays.” Schmidt
v. Board of Directors of Ass’n of Apartment
Owners of Marco Polo Apartments, 73 Haw. 526,
534, 836 P.2d 479, 483 (1992) (quoting Leibert v.
Finance Factors, Ltd., 71 Haw. 285, 293, 788
P.2d 833–838 (1990)) (internal quotation marks
omitted). “[T]he purpose of prejudgment interest
is to discourage ‘recalcitrance and unwarranted
delays in cases which should be more speedily
resolved.’ ” Calleon v. Miyagi, 76 Hawai‘i 310,

6

See HRS § 478–3 (1993) (“Interest at the rate of ten per cent a
year, and no more, shall be allowed on any judgment recovered
before any court in the State, in any civil suit.”).

23
322, 876 P.2d 1278, 1290 (1994) (citation
omitted). However,
it is clearly within the discretion of the
circuit court to deny prejudgment interest
where appropriate, for example, where:
(1) the defendant's conduct did not cause any
delay in the proceedings, see Amfac, Inc. [v.
Waikiki Beachcomber Investment Co.], 74
Haw. [85], 137, 839 P.2d [10,] 36 [ (1992) ];
(2) the plaintiff himself has caused or
contributed to the delay in bringing the
action to trial, see Schmidt v. Board of
Directors of the Ass’n of Apartment Owners of
the Marco Polo Apartments, 73 Haw. 526,
534–35, 836 P.2d 479, 484 (1992); or (3) an
extraordinary damage award has
already adequately compensated the
plaintiff, see Leibert v. Finance Factors,
Ltd., 71 Haw. 285, 293, 788 P.2d 833, 838
(holding that it was an abuse of discretion for
the circuit court to award prejudgment
interest to a treble damages award),
reconsideration denied, 71 Haw. 664, 833
P.2d 899 (1990).
Roxas v. Marcos, 89 Hawai‘i 91, 153, 969 P.2d
1209, 1271 (1998), reconsideration denied, 89
Hawai‘i 91, 969 P.2d 1209 (1999).
Id. at 61, 52 P.3d at 831) (emphases added). The
Kekonas were appellants or petitioners in several of
the appeals in this case.

24
Similarly, courts have recognized that the “purpose
of post-judgment interest is to compensate the plaintiff
for loss of the use of the money awarded in the
judgment ‘without regard to the elements of which that
judgment is composed.’” Air Separation v. Lloyd’s of
London, 45 F.3d 288, 290 (9th Cir. 1995) (citation and
internal quotation marks omitted) (awarding postjudgment interest on punitive damages). In Air
Separation, the Ninth Circuit noted that awarding
post-judgment interest is designed to prevent a
defendant from exploiting the time value of money by
frivolously appealing or otherwise delaying timely
payment. See id. Therein, the appellant failed to post
a bond to secure a stay pending appeal, and the Air
Separation Court concluded that an award of postjudgment interest of approximately 15,000 on $271,000
of punitive damages was mandatory under the
applicable statute. See id. at 290-91.
However, this Honorable Court has stated and the
Hawaii appellate court agreed that:
the “Due Process Clause of the Fourteenth
Amendment prohibits a State from imposing a
grossly excessive punishment on a tortfeasor.”
BMW of N. Am. Inc. v. Gore, 517 U.S. 559, 562,
116 S.Ct. 1589, 134 L.Ed.2d 809 (1996) (citations
and internal quotation marks omitted). A
grossly excessive punitive damages award
“furthers no legitimate purpose and constitutes
an arbitrary deprivation of property.” State
Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408, 417, 123 S.Ct. 1513, 155 L.Ed.2d 585 (2003)
(citation omitted).

25
Kekona, 130 Hawai`i at 72, 305 P.3d at 488.
It is important to further note that the Hawaii
Supreme Court used the $253,079.29 as the basis for
comparison in determining whether the different
portions of the award of $1,642,857.13 were excessive.
However, the reality is that there was no existing
compensatory award.7 The ICA had vacated that
award as duplicative of the interest amount to be
awarded against Abastillas and Smith. See Kekona,
130 Hawai`i at 67, 305 P.3d at 483. Furthermore, upon
remand, the Kekonas conceded that they had
abandoned their claim for compensatory damages
against Bornemann and were purely pursuing punitive
damages. (RA TR 2015-12-2 at 5, 7, 10).

7

While Bornemann recognizes that the Hawai`i Supreme Court
ruled in 2006 that a determination of liability amounts to a
determination of nominal damages (see Kekona, 113 Hawai`i at
179-80, 150 P.3d at 828-29 (albeit relying upon three cases
involving sexual assault by a woman’s own father, a dog attack
allowed by police, and a car dealership selling used cars as new,
and two cases involving a consumer protection statute awarding
treble damages and a fraud case holding because there were no
actual damages punitive damages could not be awarded)), the
instant situation presents the terribly slippery slope of allowing
juries to punish litigants for pursuing legitimate appeals – even
when the parties are already protected through an award of 10%
statutory interest – greater than any investment vehicle available.
The ICA determined the only evidence supporting a compensatory
award was the statutory interest caused by the delay resulting
from the litigation – ironically, damages which could not be
awarded twice and had to be vacated – and resulted from
legitimate appeals resulting in reversals of the underlying rulings
versus merely frivolous appeals.

26
4. The Punitive Damages Award was
Excessive and Constitutionally Improper in
the Context of this Fraudulent Transfer
Case.
Bornemann was made to pay more than 6 times the
amount that Abastillas and Smith were assessed in
punitive damages (i.e., $250,000) – when evidence
presented at the third trial showed that Bornemann
was in fact a creditor regarding the HPP property, and
he took the HPP property in good faith and for
reasonably equivalent value. See Kekona, 130 Hawaii
at 62-3, 305 P.3d at 478-9. A review of the 2006 ICA
and Supreme Court Decisions should also make clear
that the jury instructions, coupled with the incorrect
standard of proof at the prior trials, made a ruling
against Bornemann inevitable. In 2000, the jury was
instructed to apply a preponderance of evidence burden
and instructed that “[k]nowledge that a transaction
will operate to the detriment of creditors is sufficient
for actual intent. If the conveyance is made under such
circumstances that the result must necessarily be to
hinder and delay creditors, it will be presumed that
this was the intent of the transferor in making it.
Fraudulent intent can be found on the basis of
circumstantial evidence, direct proof will rarely be
available.” See Kekona, 111 Hawaii 203 at *11-12, 140
P.3d 436 at *11-12 (affirming the preponderance
standard applied below, which was later reversed and
vacated in Kekona, 113 Hawai`i at 181-2, 150 P.3d at
830-1).8 Bornemann directly admitted and argued
8

The ICA noted that these instructions were not challenged on
appeal.

27
below that he was a creditor and took preferential
transfers as to the HPP and Kaneohe properties.
Although the Supreme Court ruled that HUFTA did
not expressly abrogate the preferential transfer rule
(see id. at 182-3, 140 P.3d at 831-2), when coupled with
instructions like the ones above, it would be impossible
for anyone with knowledge of any other creditors to
ever take a “preferential transfer” and withstand a
HUFTA claim. Now, unlike the majority of other
jurisdictions, Hawaii allows significant punitive
damages against grantees, even if they were owed
money and were acting in good faith, particularly if
they were unfortunately incorrect on whether they took
the property for reasonably equivalent value.
Through Bornemann’s February 25, 2008 Motion for
Stay, something the Circuit Court admitted reviewing
in deciding the Motion to Enter and Motion to Amend
just prior to entering the February 1, 2016 Judgment,9
Bornemann presented significant case law from other
jurisdictions showing that punitive damage awards
were either not permitted or that large awards above
the value of the asset transferred did not exist.
(RA50:22:1375-81) See also C & A Investments v. Kelly,
330 792 N.W.2d 644, 646-47 (Wis. App. 2010) (holding
punitive damages are not available under UFTA and
particularly where no compensatory damages were
awarded); Northern Tankers, Ltd. v. Backstrom, 968 F.
Supp. 66, 67 (D. Conn. 1997) (holding no punitive
damages under Connecticut's UFTA and damages
limited to the property transferred); Cadle Company v.
Organes Enterprises, Inc., 29 A.D.3d 927 (S.Ct. App.
9

(TR113-2016-01-11 at 12, 28-29).

28
Div. 2d. Dept. N.Y. 2006) (holding claim under New
York law fraudulent conveyance does not give rise to
punitive damages even if it was effected with intent to
avoid creditors); Miller v. Kaiser, 433 P.2d 772, 777
(Colo. 1967) (holding equitable remedy of setting aside
conveyance is not compatible with an award of
exemplary damages); Summer v. Hagen, 852 P.2d 1165
(Alaska 1993) (holding punitive damages against
grantee of fraudulently conveyed property are not
authorized where underlying judgment was on
contract); Damazo v. Wahby, 269 Md. 252, 305 A.2d
138 (1973) (recognizing that Maryland fraudulent
conveyance statute does not preclude a judgment for
damages against the transferee when the property can
no longer be recovered from the transferee); In re
Shore, 305 B.R. 559 (Bankr. D. Kan. 2004) (noting
court judgment awarded punitive damages award
against transferee of $20,000 where underlying
fraudulent transfer totaled $124,000); Mussetter v.
Lyke, 10 F. Supp.2d 944 (N.D. Ill. 1998) (assessing
exemplary damages of $50,000 against transferee for
fraudulent transfer of assets found to be worth between
$1.62 and $1.716 million in return for forgiveness of
$750,000 debt where underlying judgment was in the
sum of $311,577.56 in principal amount, and
fraudulently transfer of assets could not be “avoided”
because assets were unavailable or consumed); Regency
Centre Development Co., Ltd. v. Construction
Dimensions, Inc., 2003 WL 22215483 (Ohio App. 8 Dist.
2003) (recognizing that additional indicia of “actual
malice” is required for punitive damages); Volk
Construction Co. v. Wilmescherr Drusch Roofing Co., 58
S.W.3d 897 (Mo. App. E.D. 2001) (holding punitive
damages available in fraudulent transfer case with an

29
underlying judgment of $11,771.17, and confirming
$5,000 in punitive damages was appropriate, even
where security interests were intentionally created to
strip corporation).
With due respect, the ICA’s 2006 opinion relating to
punitive damages under HUFTA, Kekona, 111 Hawai`i
203 at *20-25 203, 140 P.3d 436 at *20-25,10 failed to
analyze the critical distinction between a transferee
who disposes of the transferred property, and a
transferee who retains possession of the transferred
property. Without discussing this distinction, the ICA
relied primarily on Lochafrance United States Corp. v.
Interstate Distribution Services, Inc., 451 N.E.2d 1222,
1225 (Ohio 1983) (requiring sufficient evidence of
malice for purposes of awarding punitive damages on
fraudulent conveyance claim). Lochafrance is an
unusual case in that the transferees were successor
corporations of the transferor with the same business,
employees, and facilities.
In any event, the
Lochafrance case should not have been relied upon,
because the case appears to rely heavily on at least two
fundamentally flawed premises: (1) that the UFTA
supplemental provision (found at HRS § 651C-10)
which provides for the application the provisions of the
fraudulent transfer statute, or the UFTA’s “catch-all”
provision (found at HRS § 651C-7(a)(3)(C)) allows for

10

Hawai`i appellate courts have never addressed in depth the
issue whether punitive damages are truly appropriate when the
grantee retains the transferred property. Cf. Kekona, 135 Hawai`i
at 265 n.16, 349 P.3d at 372 n.16. This may be the opportunity for
the Court to clarify and limit the remedy to the appropriate
circumstances.

30
application of punitives, and (2) that the common law
of fraudulent conveyances allowed punitive damages
against a transferee of a fraudulent transfer.
With respect to Lochafrance’s first flawed premise,
HRS § 651C-10 specifically prohibits the application of
supplemental “principles of law and equity” where
doing so would displace the provisions of HUFTA.
Under HRS §7(a)(l), and §8(b), a creditor has the
express remedies of either avoidance of the property, or
a money judgment against the transferee limited to the
value of the property transferred or the underlying
judgment, whichever is less.
Allowing punitive
damages against a transferee would displace §8(b), and
is thus prohibited.
Additionally, the “catch-all”
provision at HRS § 651 C-7(a)(3)(C) which allows for
“[a]ny other relief the circumstances may require” is
qualified by the phrase “[s]ubject to applicable
principles of equity” contained in §7(a)(3). Accordingly,
the additional “avoidance” remedies in §7(a)(3),
including the “catch-all” remedy of §7(a)(3)(C), are
limited by principles of equity. In the context of
§7(a)(3), the phrase “principles of equity” is most likely
a reference to the fact that the “avoidance” remedy set
out in § 7 was historically an “equitable” action, and
historically, “equity” did not recognize punitive damage
awards against a transferee of a fraudulent
conveyance. Accordingly, there is no basis for claiming
the “catch-all” provision of §7(a)(3)(C) justifies an
award of punitive damages against a transferee.
With respect to Lochafrance’s second flawed
premise, even if “principles of law or equity” were to be
applied, that would not justify the imposition of

31
punitive damages against a transferee. As discussed
above, historically “equity” principles did not allow
punitive damages against transferees of fraudulent
conveyances as the equitable remedy was limited to
setting aside the transfer. See Miller, 433 P.2d at 777
(equitable remedy of setting aside conveyance is not
compatible with an award of exemplary damages).
Moreover, common “law” principles do not authorize a
general creditor to pursue the transferee in a
fraudulent conveyance action for anything other than
the specific property transferred or the proceeds
thereof this was the rule at common law, Dime Savings
Bank of New York, FSB v. Butler, 1997 WL 112776, *4
(Conn. Super. 1997) (citing Austin v. Barrows, 41 Conn.
287, 299 (1874) (other citations omitted)), and the
general common law rule is that as long as the subject
property remains in the possession of the fraudulent
transferee in toto and its value is not depreciated by
any action of the fraudulent transferee, a personal
judgment against such transferee will not be sustained.
See Miller, 433 P.2d at 775. Nothing in “principles of
law or equity” authorize a punitive damage award
against a transferee who retains possession of the
transferred property, particularly absent clear and
convincing evidence of malice.
B. The ICA Gravely Erred in Refusing to Hold
the Underlying Judgment Expired on
September 2, 2014, Terminating the
Fraudulent Transfer Claim.
The ICA gravely erred in declining to hold that
Circuit Court incorrectly denied Bornemann’s June 23,
2015 Motion to Vacate the February 5, 2008 Judgment

32
insofar as the original 1994 Judgment had expired as
a matter of law on September 2, 2014, pursuant to HRS
§ 657-5.11 Without a presently enforceable debt or
claim, the Kekonas could no longer recover
compensatory (whether nominal or actual) or punitive
damages from Bornemann.
The Circuit Court
nevertheless denied the Motion to Vacate and entered
the February 1, 2016 Judgment against Bornemann –
all premised on the underlying September 2, 1994
Revised Final Judgment.
Addressing whether garnishment proceedings could
proceed after a judgment expired under HRS § 657-5,
the Hawaii Supreme Court explained: “HRS § 657–5 is
a statute of repose that compels the exercise of a right
within the statutorily defined period of time. . . . If the
judgment creditor fails to secure the extension within
the ten years, the judgment and all the rights and
remedies appurtenant to that judgment
terminate.” Int’l Sav. And Loan Ass’n Ltd. v. Wiig, 82
Hawai`i 197, 199-200, 921 P.2d 117, 119-20 (1996)
(emphases added). Recognizing that HRS § 657–5
creates a presumption that the judgment is “fully paid”
after ten years from the judgment, the Wiig Court held
that “the judgment, together with all the rights

11

HRS § 657-5 provides:
Unless an extension is granted, every judgment and
decree of any court of the State shall be presumed to be
paid and discharged at the expiration of ten years
after the judgment or decree was rendered. . . . A
court shall not extend any judgment or decree
beyond twenty years from the date of the original
judgment or decree. . . . (Emphases added.)

33
and remedies appurtenant to it, are conclusively
presumed paid and discharged after ten years
unless timely renewed.” Id. at 201, 921 P.2d at 121.
In other words, because garnishment is a collection
procedure premised on a valid judgment, it cannot
survive independently of the judgment. Thus, the Wiig
Court concluded that, if the judgment expires under
HRS § 657-5, the judgment is presumed paid and
discharged as a matter of law and all of the rights and
remedies appurtenant to that judgment terminate. Id.
The Ninth Circuit Court of Appeals recognized the
same in In the case of In Re Estate of Ferdinand E.
Marcos Human Rights Litigation, 536 F.3d 980, 987 &
990 (9th Cir 2008):
On its face, HRS § 657–5 plainly states that all
judgments are extinguished after ten years
unless timely renewed. The Hawai‘i Supreme
Court has authoritatively declared that the
burden is on the judgment creditor to seek
judicial extension of the judgment prior to
expiration of the ten-year period, and that if she
fails to secure an extension within the ten years,
“the judgment and all the rights and remedies
appurtenant to that judgment terminate.” Wiig,
921 P.2d at 119. . . . .
Alternatively, Hilao submits that the
running of the Hawai‘i period of limitations was
tolled by her collection efforts . . . . Whether or
not this is so, the extension was not sought
before the MDL 840 Judgment expired. HRS
§ 657–5 contains no provision for revival, and

34
the Hawai‘i Supreme Court has held that its
time limits are absolute. . . .
Other courts have reached similar holdings. See
e.g., Kroop & Karland, P.A. v. Lambros, 118 Md. App.
651, 655-66, 703 A.2d 1287, 1293-1294 (1998) (holding
failure to renew means the judgment “no longer exists”
and creditor lost right to sell property in satisfaction
thereof); Ayer v. Hemingway, 73 A.3d 673, 676 (VT
2013) (holding expired judgment stopped a postjudgment lien foreclosure). While the result may seem
harsh, this makes sense.
While a statute of limitations bars a cause of
action if not brought within a certain time
period, a statute of repose prevents a cause of
action from arising after a certain period. The
bar of a statute of repose is absolute,
whereas the bar of a statute of limitations is
conditional.
A statute of repose creates a substantive
right in those protected to be free from
liability after the legislatively determined
period of time, beyond which the liability
will no longer exist and will not be tolled
for any reason.
4 C.J.S., Limitations of Actions § 7 Distinctions
Between Statutes of Limitations and Statutes of Repose
(2016) (footnotes omitted and emphases added). Thus,
Hawai`i law is clear that once the judgment expires, it
is extinguished and the judgment holder cannot collect
on that judgment debt.

35
Fraudulent transfer, just like garnishment, is a
mechanism to collect an existing debt and requires a
presently enforceable claim. In fact, a valid, presently
enforceable debt against the original transferor is an
essential element of an action against the transferee to
set aside a fraudulent transfer, the absence of which is
fatal.12 The rationale for this long-recognized rule was
explained in Jorden v. Ball, 258 N.E.2d 736, 737 (Mass.
1970):
The uniform fraudulent conveyance act confers
jurisdiction to set aside conveyances made with
actual intent ‘to hinder, delay, or defraud either
present or future creditors, * * *’ G.L. c. 109A,
Sec. 7. The act is remedial. It provides a method
by which the frustration of claims by a
conveyance may be avoided, but it does not
create new claims. To benefit from the rights
it creates, a person must qualify as a ‘creditor,’
defined in the act as ‘a person having any claim,
whether matured or unmatured, liquidated or
unliquidated, absolute, fixed or contingent.’ As
we stated in Blumenthal v. Blumenthal, 303
Mass. 275, 278, 21 N.E.2d 244, 246 (1939), ‘The
remedy i[s] incidental to the claim. If the claim

12

See 37 C.J.S. Fraudulent Conveyances Sec. 70 (1943); Oregon
Recovery, LLC v. Lake Forest Equities, Inc., 211 P.3d 937, 940-50
(Or. App. 2009); Laidley v. Heigho, 326 F.2d 592, 593-594 (9th Cir.
(Cal.) 1963); Clark v. Rosson, 657 P.2d 903, 904 (Ariz. App. 1982);
Strom v. Felton, 302 P.2d 917, 923 (Wyo. 1956); State of Rio De
Janeiro v. E.H. Rollins & Sons, Inc., 87 N.E.2d 299, 300 (N.Y.
1949); Remington-Rand, Inc. v. Emory University, 196 S.E. 58, 59
(Ga. 1938).

36
is not established, then the whole proceedings
fail, and the bill must be dismissed.’
(Emphasis added; quotation marks in original.)13 Here,
the Kekonas pursued a claim of fraudulent transfer
against Bornemann based solely upon the 1994
Judgment, which expired on September 2, 2014.
Insofar as the Kekonas no longer have a presently
enforceable debt or claim, their corresponding claim
against Bornemann for fraudulent transfer likewise
expired.
In declining to recognize the application of the
above well-settled law, the ICA first attempted to note
that the Kekonas initiated the underlying action based
upon the 1993 jury award before it was reduced to the
1994 Judgment, incorrectly “noting” somehow that
therefore the 1994 Judgment is not the only basis for
their fraudulent transfer claim, without any support or
authority that a jury award before judgment is
somehow independent of the resulting judgment. See
App. A at 15. The 1993 jury award was reduced to the
1994 Judgment and is the only claim and/or judgment
that the Kekonas pursued at trial and during the
several retrials of their claim. The ICA then attempted
to distinguish the above case law, discussing Int’l Sav.

13

Indeed, “numerous decisions declare that the action to set aside
a fraudulent conveyance is merely ‘incidental,’ ‘adjective,’ and
‘ancillary’ to the creditor's right to collect the underlying debt[,]”
and cannot be maintained if the underlying debt does not exist,
has expired or is otherwise void. Jahner v. Jacob, 515 N.W. 2d
183, 185-6 (N.D. 1994); Central-Penn Nat'l Bank of Phila. v. Culp,
182 A. 239, 240-241 (Pa. 1936); State of Rio De, supra, at 300;
Clark, supra, at 904.

37
and Loan Ass’n, Ltd. v. Wiig, supra and referring to
Oregon Recovery, LLC, supra, and Carr v. Guerard, 616
S.E.2d 429 (S.C. 2009), by noting that the underlying
judgments in those cases had expired before the
plaintiff had secured independent judgments in those
cases. The ICA then stated “independent and separate
judgments were entered in this case against
Bornemann.” App. A at 16. This analysis is flawed for
two basic reasons. First, Hawaii statutory law, unlike
some of these jurisdictions, does not stay the effect of
HRS § 657–5 when a collection action is pursued. Cf.
RRR, Inc. v. Toggas, 98 F.Supp.3d 12 (2015) (holding
that second “garnishment” judgment was rendered void
and recognizing the “narrow exception” to expiration if
the judgment creditor has completed all execution
efforts prior to the ten-year expiration date and is only
awaiting the issuance of an execution order (citing D.C.
Code §15-39-30 (1976))). Second, the “independent and
separate judgments” the ICA referenced were reversed
and/or modified through appeal and were not
enforceable before the 1994 Judgment expired.
The ICA then essentially concluded that the Circuit
Court “did not err in denying the motion to vacate”
because it was required to “strictly comply with the
mandate of the appellate court” and Bornemann could
have raised this issue in a motion for reconsideration
before the Hawaii Supreme Court in 2015. However,
HRS 657-5 is mandatory – a “court shall not extend
any judgment or decree beyond twenty years from the
date of the original judgment or decree” and “every
judgment . . . shall be presumed to be paid and
discharged at the expiration[.]” There is no discretion
in this language. There is no exception for actions

38
already instituted in this language. Accordingly, the
ICA should have reversed the Circuit Court and
vacated the February 5, 2008 Judgment, entering
judgment in favor of Bornemann, and returning the
payments and assets made and/or conveyed to the
Kekonas for the punitive damages award (totaling
$2,957,142.73).
CONCLUSION
For the above-stated reasons, Bornemann
respectfully requests that this Court grant this Petition
and issue a writ of certiorari, review and reverse
certain portions of the ICA Memorandum Opinion and
enter judgment in favor of Bornemann.
Respectfully submitted,
TERENCE J. O’TOOLE
Counsel of Record
STARN O’TOOLE MARCUS & FISHER
A Law Corporation
733 Bishop Street, Suite 1900
Pacific Guardian Center, Makai Tower
Honolulu, Hawai`i 96813
Telephone: (808) 537-6100
Email: totoole@starnlaw.com
Attorney for Petitioner
Michael Bornemann

